No. 20-472
IN THE SUPREME COURT OF THE UNITED STATES
_________________
HOLLYFRONTIER CHEYENNE REFINING, LLC, ET AL.,
PETITIONERS
v.
RENEWABLE FUELS ASSOCIATION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT, via e-mail and first-class mail, postage
prepaid, this 24th day of March 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 12,051 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 24, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 24, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0472
HOLLYFRONTIER CHEYENNE, ET AL.
RENEWABLE FUELS ASSN., ET AL.

JENNY R. BUCHHEIT
ICE MILLER LLP
ONE AMERICAN SQUARE
SUITE 2900
INDIANAPOLIS, IN 46282
SHELBY LEIGH DYL
PILLSBURY WINTHROP SHAW PITTMAN
1200 SEVENTH STREET, NW
WASHINGTON, DC 20036
SHELBY.DYL@PILLSBURYLAW.COM
ANDREW M. GROSSMAN
BAKER & HOSTETLER LLP
1050 CONNECTICUT AVE., NW
WASHINGTON, DC 20036
202-861-1697
AGROSSMAN@BAKERLAW.COM
JONATHAN HARDIN
PERKINS COIE LLP
700 13TH STREET, NW
SUITE 800
WASHINGTON, DC 20005-3960
202-654-6297
JHARDIN@PERKINSCOIE.COM
PETER D KEISLER
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8000
PKEISLER@SIDLEY.COM

DEREK R. MOLTER
ICE MILLER LLP
ONE AMERICAN SQUARE
SUITE 2900
INDIANAPOLIS, IN 46282
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
RMORRIS@SIDLEY.COM
MATTHEW W. MORRISON
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 SEVENTEENTH STREET, NW
WASHINGTON, DC 20036
202-663-8000
MATTHEW.MORRISON@PILLSBURYLAW.CO
M
MATT VANWORMER
OFFICE OF THE WYOMING ATTORNEY
GENERAL
2320 CAPITOL AVENUE
CHEYENNE, WY 82002
307-777-6946
MATT.VANWORMER@WYO.GOV

